November 2007
Report No. AUD-08-002


Examination Procedures for Assessing
Selected Controls Related to the
Protection of Customer and Consumer
Information at Multi-regional Data
Processing Servicers (MDPS)




            AUDIT REPORT
                                                                                                     Report No. AUD-08-002
                                                                                                            November 2007
                                                Examination Procedures for Assessing Selected Controls
                                                Related to the Protection of Customer and Consumer
                                                Information at Multi-regional Data Processing
                                                Servicers (MDPS)

 Background and Purpose of                      Results of Audit
 Audit
                                                The FDIC has taken a number of proactive steps in its oversight of TSPs in the
 FDIC-insured financial institutions are        MDPS program. During our audit, the FDIC hosted the 2007 FFIEC MDPS
 increasingly outsourcing their critical        Supervisory Strategy Meeting, enhanced its monitoring of TSPs in the MDPS
 information technology services to             program, and conducted a number of outreach initiatives. Importantly, FDIC
 Technology Service Providers (TSP).            examiners use FFIEC and FDIC examination guidance when assessing security
 Frequently, these outsourcing                  controls related to the protection of customer and consumer information at TSPs
 arrangements involve the collection,           in the MDPS program. Additionally, as part of each examination, the examiners
 processing, and storage of customer and        considered the risk assessment of security controls prepared by the TSP in
 consumer information on behalf of              response to the interagency guidelines. However, the risk assessments for the
 financial institutions. The Bank Service       three TSPs we reviewed generally did not address the three security control
 Company Act provides federal bank
                                                areas (oversight of TSP third-party service providers, incident response
 regulators with examination access to
 TSPs. TSPs that process mission-critical       programs, and the disposal of information) covered by our audit, and
 applications for a large number of             examination documentation we reviewed generally did not contain conclusions
 financial institutions with multiple           on security risks in these control areas. As a result, we were unable to
 regulators or geographically dispersed         determine whether related examination procedures performed at the three TSPs
 data centers are subject to interagency        reviewed were commensurate with the risk of unauthorized access to customer
 examination under the Federal Financial        and consumer information.
 Institutions Examination Council’s
 (FFIEC) MDPS program and related               The FDIC can further ensure that TSP examination procedures are effective and
 examination guidance.                          efficient by more closely linking examination procedures to underlying
 Federal regulators published interagency       conclusions on risk in security control areas. In this manner, the FDIC would
 guidelines that established information        have greater assurance that customer and consumer information processed by
 security standards for financial institution   TSPs in the MDPS program is protected consistent with statutory and regulatory
 use in developing and implementing             requirements.
 safeguards to protect customer and
 consumer information. Those guidelines         Recommendations and Management Response
 implement statutory requirements for
 financial institutions intended to protect
                                                We recommended that the Director, Division of Supervision and Consumer
 such information and to deter identity
 theft. Our audit focused on three selected     Protection: (1) provide conclusions on the risks for key security control areas in
 security control areas contained in the        FDIC examination documentation for examinations of TSPs in the MDPS
 guidelines: the oversight of TSP third-        program in order to provide greater assurance that examination procedures
 party service providers, incident response     performed are commensurate with identified risks and (2) conduct periodic
 programs, and the disposal of                  quality assurance reviews of examination documentation prepared by FDIC
 information.                                   examiners under the MDPS program to achieve greater assurance that MDPS
                                                examination documentation contains risk determinations for key security control
 The audit objective was to assess the
 FDIC’s implementation of FFIEC and             areas, procedures performed are commensurate with identified risk, and
 FDIC examination guidance for selected         examination processes are consistently applied across FDIC regions.
 controls related to the protection of
 customer and consumer information at           FDIC management agreed with both recommendations, noting that it has begun
 TSPs in the MDPS program. Of the 16            quality assurance reviews of documentation prepared by FDIC examiners for
 TSPs in the MDPS program, we sampled           examinations of TSPs in the MDPS program where the FDIC is the Agency-in-
 3 of the 8 TSPs for which the FDIC             Charge. Further, the FDIC agreed to emphasize the importance of documenting
 served as the Agency-in-Charge for the         adequate conclusions for key security control areas.
 most recent examination.

To view the full report, go to
www.fdicig.gov/2008reports.asp
                            TABLE OF CONTENTS


BACKGROUND                                                                  1

RESULTS OF AUDIT                                                            6

ASSESSING SECURITY RISKS RELATED TO THE PROTECTION OF                       6
CUSTOMER AND CONSUMER INFORMATION

  Recommendations                                                          10

CORPORATION COMMENTS AND OIG EVALUATION                                    10

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                              11

APPENDIX II: LAWS, REGULATIONS, POLICY, AND GUIDANCE                       14

APPENDIX III: GLOSSARY OF TERMS                                            18

APPENDIX IV: CORPORATION COMMENTS                                          21

APPENDIX V: MANAGEMENT RESPONSE TO                                         23
RECOMMENDATIONS

FIGURES

Figure 1. IT Booklets That Comprise the FFIEC IT Examination                4
          Handbook
Figure 2. Examination Objectives for Evaluating the Oversight of Service    7
          Providers
Figure 3. Components of a Response Program                                  8
Federal Deposit Insurance Corporation                                                             Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


DATE:                                     November 30, 2007

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Examination Procedures for Assessing Selected Controls
                                          Related to the Protection of Customer and Consumer
                                          Information at Multi-regional Data Processing Servicers
                                          (MDPS) (Report No. AUD-08-002)

This report presents the results of our third audit in a series of audits relating to the
FDIC’s oversight of technology service providers (TSP). 1 The overall purpose of these
audits is to assess the FDIC’s examination coverage of TSPs and related efforts to protect
the customer and consumer information 2 of FDIC-supervised financial institutions. The
objective of this audit was to assess the FDIC’s implementation of the Federal Financial
Institutions Examination Council (FFIEC) 3 and FDIC examination guidance for selected
controls related to the protection of customer and consumer information at TSPs in the
MDPS program. This audit focused on TSP controls in the following areas: (a) the
oversight of TSP agreements with third-party service providers that maintain customer
and consumer information; (b) response programs for addressing security incidents
involving customer and consumer information; and (c) the disposal of customer and
consumer information. We conducted this performance audit in accordance with
generally accepted government auditing standards. Appendix I discusses our audit
objective, scope, and methodology in detail. Appendix III contains a glossary of terms.


BACKGROUND

FDIC-insured financial institutions are increasingly turning to TSPs to outsource critical
information technology (IT) services, such as deposit and general ledger processing,
check processing and imaging, and Web hosting. Frequently, these outsourcing

1
   See Appendix I for a description of the scope and objectives for the two prior audits.
2
   Customer information refers to records containing nonpublic personal information about a customer, that
is, someone who has a continuing relationship (e.g., savings account or loan) with a financial institution.
Consumer information refers to records about an individual that, in general, are derived from consumer
reports. See Appendix III for further information related to these terms.
3
   The FFIEC is an interagency body statutorily empowered to prescribe uniform principles, standards, and
report forms for the federal examination of financial institutions by the FDIC, the Board of Governors of
the Federal Reserve System (FRB), the Office of the Comptroller of the Currency (OCC), the Office of
Thrift Supervision (OTS), and the National Credit Union Administration (NCUA).
arrangements involve the collection, processing, and storage of customer and consumer
information on behalf of financial institutions. While outsourcing offers financial
institutions a number of important benefits, such as competitive advantages and cost-
efficiencies, it also requires that appropriate steps be taken to ensure that TSPs adequately
protect customer and consumer information in their custody. Widely publicized reports
of data security breaches involving sensitive personal information 4 have raised concerns
among banking regulators, the public, and the Congress, and underscore the importance
of implementing sound security controls to protect customer and consumer information.

Requirements for Protecting Customer and Consumer Information

Two key statutes aimed at protecting sensitive personal information and preventing
identity theft are the Gramm-Leach-Bliley Act (GLBA) of 1999 and the Fair and
Accurate Credit Transaction Act of 2003 (FACT Act).

    •   GLBA states that it is congressional policy that financial institutions have an
        affirmative and continuing obligation to protect the security and confidentiality of
        their customers’ non-public personal information. The statute directs the FDIC
        and other regulatory agencies to establish appropriate standards for the security
        and confidentiality of customer records and information pertaining to financial
        institution customers.

    •   The FACT Act, which amends the Fair Credit Reporting Act, is intended to
        protect consumers against the risks of identity theft and other types of consumer
        fraud by requiring that “any person that maintains or otherwise possesses
        consumer information, or any compilation of consumer information, derived from
        consumer reports for a business purpose properly dispose of any such information
        or compilation.” The Act directs the FDIC and other regulatory agencies to
        promulgate rules regarding the proper disposal of consumer information.

The FDIC, in coordination with the other regulatory agencies, implemented its
responsibilities under GLBA and the FACT Act through the Interagency Guidelines
Establishing Information Security Standards (the Security Guidelines). 5 The Security
Guidelines require that financial institutions implement a comprehensive information
security program that is designed, in general, to ensure the security, confidentiality, and
proper disposal of customer and consumer information. A fundamental component of the
security program is the development of a written risk assessment that addresses risks to
the institution’s customer and consumer information and the methods the institution uses

4
   In June 2005, it was reported that a security breach at a TSP exposed more than 40 million credit card
accounts to potential fraud. In May 2007, it was reported that a financial services firm had discarded
documents containing sensitive customer financial information in garbage bags outside of several of the
firm’s branch locations.
5
   Appendix B of Part 364 and Subpart I of Part 334 of the FDIC’s Rules and Regulations. The Security
Guidelines, effective July 1, 2001, implement sections 501(b) and 505 of GLBA and were amended
effective July 1, 2005 to reflect section 216 of the FACT Act. The Security Guidelines set forth standards
pursuant to section 39 of the Federal Deposit Insurance Act regarding, in general, safeguards to protect
customer information.


                                                     2
to access, collect, store, use, transmit, protect, or dispose of such information. According
to the Security Guidelines, financial institutions must take the following steps in
assessing risk to their customer and consumer information:

    •   identify reasonably foreseeable internal and external threats that could result in
        unauthorized disclosure, misuse, alteration, or destruction of customer
        information or consumer information systems; 6

    •   assess the likelihood and potential damage of identified threats, taking into
        consideration the sensitivity of customer information; and

    •   assess the sufficiency of policies, procedures, customer information systems, and
        other arrangements in place to control identified risks.

The Security Guidelines also state that financial institutions must address certain security
control areas when developing and implementing their information security programs.
Three of these security control areas were the focus of our audit:

    •   Oversight of Service Providers. Financial institutions shall (a) exercise
        appropriate due diligence when selecting service providers; (b) require service
        providers, by contract, to implement appropriate measures designed to meet the
        objectives of the Security Guidelines; 7 and (c) where indicated by the institution’s
        risk assessment, monitor service providers to confirm that they have met their
        obligations to satisfy objectives of the Security Guidelines.

    •   Response Programs. Financial institutions must consider implementing a
        response program (including customer notification procedures) that specifies
        actions to be taken when unauthorized access to customer information systems is
        suspected or detected, including appropriate reports to regulatory and law
        enforcement agencies.

    •   Disposal of Information. Financial institutions must develop, implement, and
        maintain appropriate measures to properly dispose of customer and consumer
        information. 8

The Security Guidelines recognize that when a financial institution enters into an
outsourcing arrangement with a TSP, the institution continues to be responsible for the
security of any customer or consumer information handled by the TSP on behalf of the
institution. According to the Security Guidelines, financial institutions are expected to
contractually require their service providers to implement appropriate measures designed
to meet the objectives of the Security Guidelines.

6
  Any methods used to access, collect, store, transmit, protect, or dispose of customer information.
7
  By July 1, 2003, financial institutions were expected to include a requirement in all service provider
contracts to maintain the security and confidentiality of customer information.
8
  Financial institutions were expected to comply with the disposal provisions of the Security Guidelines by
July 1, 2005 and to modify all affected service provider contracts by July 1, 2006.


                                                     3
Federal Oversight of TSPs

The Bank Service Company Act authorizes the FDIC, FRB, and OCC to examine the
operations of third-party companies that provide services to financial institutions. 9 The
purpose of conducting such examinations is to identify and assess risks, including risks to
the security of customer and consumer information, which may adversely affect the
safety and soundness of serviced financial institutions. The FFIEC has published a series
of IT Booklets (see Figure 1), collectively referred to as the FFIEC IT Examination
Handbook, that contain guidance and procedures to assist examiners in conducting
examinations of financial institutions and their TSPs. Examiners may tailor the procedures in
the booklets based on examiner
judgment and relevant examination            Figure 1: IT Booklets That Comprise the
factors, such as the size and                           FFIEC IT Examination Handbook
complexity of the TSP and the quality            1. Supervision of Technology Service
of the TSP’s risk assessment. For                    Providers
example, less work by examiners                  2. Business Continuity Planning
would be needed for a TSP that has               3. Audit
thoroughly considered the risks to the           4. Development and Acquisition
security of its customer and consumer            5. Outsourcing Technology Services
information as part of its risk                  6. Management
assessment. Our audit assessed the               7. Operations
FDIC’s implementation of relevant                8. Information Security
examination procedures in IT                     9. E-Banking
Booklets 1-8 because these eight IT              10. FedLine
Booklets contain examination                     11. Retail Payment Systems
procedures related to the three                  12. Wholesale Payment Systems
security control areas covered by our
audit.                                     Source: FFIEC.

The FDIC issued examination guidance in its April 5, 2005 Regional Director
Memorandum entitled, Examination Procedures to Evaluate Response Programs for
Unauthorized Access to Customer Information and Customer Notice. The FDIC also
issued two Financial Institution Letters (FIL) 10 relevant to the scope of our audit: the
Fair and Accurate Credit Transaction Act of 2003 Guidelines Requiring the Proper
Disposal of Consumer Information (dated February 2, 2005) and the Risk Management of
Technology Outsourcing (dated November 29, 2000). We considered the guidelines in
the memorandum and FILs in conducting our audit.




9
   Specifically, the bank regulator with jurisdiction over the principal investor of the bank service
corporation may examine that service corporation or may authorize other bank regulators that supervise any
other member of the service corporation to conduct the examination. Moreover, the Examination Parity
and Year 2000 Readiness for Financial Institutions Act authorizes the OTS to examine service providers.
The NCUA does not have statutory authority over service providers.
10
    The FDIC issues FILs to financial institutions to announce new regulations and policies, new FDIC
publications, and other matters of interest to those responsible for operating a financial institution.


                                                    4
The MDPS Program

Certain TSPs, because of the high risk they pose to the financial services industry, are
subject to interagency examination under the FFIEC’s MDPS program. According to the
FFIEC, disruptions in services, as a result of financial or operational conditions, at one of
these TSPs pose systemic risk 11 to the banking system. The FFIEC considers a TSP for
the MDPS program when the TSP processes critical applications, such as general ledger
or loan and deposit systems, for a large number of financial institutions with multiple
federal regulators or geographically dispersed data centers. As of June 25, 2007, there
were 16 TSPs in the MDPS program, which collectively provide mission-critical IT
services to the majority of the country’s regulated financial institutions.

The FFIEC IT Subcommittee 12 has implemented a risk-based approach for determining
the frequency and scope of examination coverage of TSPs in the MDPS program.
Generally, TSPs in the MDPS program are subject to on-site examinations at least every
2 years and more frequently when supervisory concerns exist. On-site examinations are
supplemented with interim reviews of material changes in TSP activities or condition.
The scope and frequency of interim reviews vary, depending on the degree of change at
the TSP, but are generally conducted at least once between on-site examinations. The
FFIEC IT Subcommittee designates an Agency-in-Charge for each TSP in the MDPS
program to coordinate examination activities. As of June 25, 2007, the FDIC was the
Agency-in-Charge for 8 of the 16 TSPs in the MDPS program. The Agency-in-Charge is
responsible for preparing key examination products, such as the scoping memorandum
and Report of Examination (ROE). The scoping memorandum contains the TSP’s
corporate history, data centers included in the examination, examination schedule, and
resource requirements. The ROE contains relevant examination findings, conclusions,
and management comments and includes an IT examination rating reflecting the overall
level of supervisory attention warranted for the TSP. 13

FDIC’s Oversight of TSPs in the MDPS Program

Within the FDIC, the Division of Supervision and Consumer Protection (DSC) has
primary responsibility for examinations of TSPs in the MDPS program. In this capacity,
DSC has taken a number of proactive measures. Of particular note, DSC hosted
conferences in March 2006 and February 2007 with representatives of other FFIEC
agencies to discuss issues, trends, and supervisory strategies related to TSPs in the MDPS
program. DSC also implemented the Technology Service Provider Event and Reporting
Program in June 2007 to assist FDIC examiners in analyzing pertinent financial,

11
   Systemic risk can occur when one participant fails to meet its obligations, causing other participants to
fail to meet their obligations. Such a chain reaction can threaten the stability of financial markets.
12
   The IT Subcommittee, which is a standing committee of the FFIEC Task Force on Supervision, serves as
a forum to address information systems and technology issues as they relate to financial institutions in
order to promote quality, consistency, and effectiveness in examination practices.
13
   Examiners use the FFIEC’s Uniform Ratings System for Information Technology to assess and rate
IT-related risks at TSPs. Ratings are based on a scale of 1 through 5 in ascending order of supervisory
concern, with 1 representing the highest rating and least degree of supervisory concern and 5 representing
the lowest rating and highest degree of supervisory concern.


                                                     5
technical, and operational information pertaining to TSPs in the MDPS program. In
addition, DSC continues to provide financial institutions with relevant information
regarding the protection of customer and consumer information processed by TSPs
through FILs, outreach initiatives (including conferences and speaking engagements),
and the FDIC’s public Web site.


RESULTS OF AUDIT

The FDIC has taken a number of proactive steps in its oversight of TSPs in the MDPS
program. During our audit, the FDIC hosted the 2007 FFIEC MDPS Supervisory
Strategy Meeting, enhanced its monitoring of TSPs in the MDPS program, and conducted
a number of outreach initiatives. Importantly, FDIC examiners use FFIEC and FDIC
examination guidance when assessing security controls related to the protection of
customer and consumer information at TSPs in the MDPS program. Additionally, as part
of each examination, the examiners considered the risk assessment for security controls
prepared by the TSP in response to the Security Guidelines. However, the risk
assessments for the three TSPs we reviewed generally did not address the three security
control areas (oversight of TSP third-party service providers, incident response programs,
and the disposal of information) covered by our audit, and examination documentation
we reviewed generally did not contain conclusions on security risks in these control
areas. As a result, we were unable to determine whether related examination procedures
performed at the three TSPs we reviewed were commensurate with the risk of
unauthorized access to customer and consumer information.

Providing conclusions in FDIC examination documentation on the risks for key security
control areas related to the protection of customer and consumer information would
promote consistency in security control assessments performed by the FDIC’s regional
offices for TSPs in the MDPS program. Such information would also be valuable to
examiners when they assume examination responsibilities for TSPs in the MDPS
program, such as when examination responsibilities transition from one regulator to
another. In addition, enhanced linking of examination procedures with identified security
risks would provide DSC greater assurance that customer and consumer information
processed by TSPs in the MDPS program is protected consistent with the statutory and
regulatory requirements intended to safeguard such information.


ASSESSING SECURITY RISKS RELATED TO THE PROTECTION OF
CUSTOMER AND CONSUMER INFORMATION

The FFIEC IT Examination Handbook states that examiners should evaluate the degree
of risk and the quality of risk management as part of each TSP examination. This
involves, among other things, reviewing the TSP’s internally-prepared risk assessment to
evaluate the organization’s practices for identifying, measuring, controlling, and
monitoring security risks. Evaluating TSP risk assessments helps examiners focus
examination resources on the TSP control areas that present the greatest risk. For the


                                            6
three TSPs we sampled, we noted that examiners were evaluating the adequacy of TSP-
prepared risk assessments. However, neither the TSP-prepared risk assessments nor the
examination documentation (e.g., working papers, ROEs, and scoping memoranda)
adequately described the security risks in the three control areas covered by our audit. In
addition, the scope of examination procedures performed in these three control areas
varied significantly among the TSPs we reviewed. As a result, we were unable to
determine whether the examination procedures performed in these three control areas
were commensurate with the associated security risks.

The following sections describe the varying degree of examination coverage related to
the oversight of service providers, response programs, and the disposal of information.

Oversight of Service Providers. The           Figure 2: Examination Objectives for Evaluating
FFIEC’s Outsourcing Technology Services       the Oversight of Service Providers
IT Booklet defines four fundamental control
                                                ♦ Risk Assessment and Requirements:
areas associated with the outsourcing of IT        Evaluate the quantity of risk present from
services by financial institutions or TSPs:        the outsourcing arrangement and the quality
Risk Assessment and Requirements, Service          of risk management.
Provider Selection, Contract Issues, and        ♦ Service Provider Selection: Evaluate the
Ongoing Monitoring. The IT Booklet                 service provider selection process.
contains examination guidance, objectives,      ♦ Contract Issues: Evaluate the process for
and procedures to assist examiners in              entering into a contract with the service
assessing risks (including security risks) in      provider.
                                                ♦ Ongoing Monitoring: Evaluate the process
each of the four IT outsourcing control
                                                   for monitoring the risk presented by the
areas. Figure 2 summarizes the examination         service provider relationship. Review the
objectives associated with each IT                 policies regarding periodic ranking of
outsourcing control area as described in the       service providers by risk for decisions
Outsourcing Technology Services IT                 regarding the intensity of monitoring
Booklet. In addition, the FFIEC’s                  (i.e., risk assessment).
Information Security IT Booklet contains
guidance and examination procedures for        Source: OIG Analysis of the FFIEC’s
                                               Outsourcing Technology Services IT Booklet.
evaluating security controls associated with
the oversight of service providers.

Although examiners considered each of the four IT outsourcing control areas in Figure 2
when examining TSPs in the MDPS program, the scope of examination procedures
performed in these areas to assess security risks varied significantly. For example, with
respect to Risk Assessment and Requirements, examination working papers for two of the
three TSPs we reviewed did not include procedures to determine whether the TSP had
identified all of its service providers with access to customer and consumer information.
Identifying service providers with access to customer and consumer information is a
critical step in determining whether the service providers’ security controls are consistent
with the principles of the Security Guidelines. Regarding Contract Issues, examination
working papers for two of the three TSPs did not contain procedures to assess the
adequacy of security requirements in service provider contracts. In addition, examination




                                             7
working papers for one of the three TSPs did not contain procedures to assess security in
the areas of Service Provider Selection or Ongoing Monitoring.

Response Programs. In March 2005,             Figure 3: Components of a Response Program
the FDIC, in coordination with the other
FFIEC agencies, issued supplemental             1. Assessing the nature and scope of the
                                                    incident and identifying the systems and
guidance regarding GLBA and the Security
                                                    types of information that have been
Guidelines 14 by describing five minimum            accessed.
components of a response program that           2. Taking appropriate steps to contain and
financial institutions should develop and           control the incident.
implement to address incidents of               3. Notifying the institution’s primary
unauthorized access to sensitive customer           federal regulator.
information (see Figure 3). The Security        4. Notifying appropriate law enforcement
Guidelines state that financial institutions        authorities if a Suspicious Activity
must require their service providers, by            Report is filed.
contract, to implement appropriate security     5.  Notifying  customers, when warranted.
measures for responding to incidents of
                                               Source: The Security Guidelines.
unauthorized access to customer information.
In addition, DSC’s April 5, 2005 memorandum entitled, Examination Procedures to
Evaluate Response Programs for Unauthorized Access to Customer Information and
Customer Notice, contains procedures to assist FDIC examiners in evaluating and
documenting the five components of a response program.

Although examiners performed procedures to address all five components of a response
program at two of the three TSPs we reviewed, examiners did not perform examination
procedures to address two of the five response program components at the remaining
TSP. Specifically, examiners did not perform procedures to determine whether the TSP
had adequate controls in place for notifying federal regulators of incidents involving
unauthorized access to, or use of, customer information. In addition, examiners did not
perform procedures to fully assess the role and responsibilities of a key TSP contractor
involved in assessing, containing, and controlling security incidents.

Disposal of Information. The Security Guidelines direct financial institutions to require
their service providers, by contract, to implement appropriate measures to protect against
unauthorized access to, or use of, customer information that could result in substantial
harm or inconvenience to customers. Such measures include developing, implementing,
and maintaining appropriate controls for disposing of customer and consumer
information processed on behalf of financial institutions. Examples of “reasonable
measures” that organizations and individuals can take when disposing of consumer
information are provided in the Federal Trade Commission’s regulation, Disposal of




14
  The FDIC’s version of the supplemental guidance appears as Supplement A, Interagency Guidance on
Response Programs for Unauthorized Access to Customer Information and Customer Notice, to
Appendix B of Part 364.


                                                 8
Consumer Report Information and Records (the Disposal Rule). 15 In addition, the
FFIEC’s Business Continuity Planning, Information Security, and Operations IT
Booklets contain examination guidance and procedures for assessing security controls
related to the disposal of information. The FFIEC examination guidance and procedures
can be divided into three areas: (1) assessing disposal risks; (2) reviewing and evaluating
the sufficiency of security policies and standards related to disposal; and (3) determining
whether disposal controls and processes are appropriately implemented.

Although examiners conducted procedures to review and evaluate security policies and
standards related to the disposal of information at all three of the TSPs we reviewed,
procedures for assessing the implementation of those policies and standards varied. At
one of the TSPs, the internal audit department conducted extensive work on an outside
disposal firm engaged by the TSP to destroy information, 16 and the examiners included
the review results in the examination working papers. Although the remaining two TSPs
had also engaged outside disposal firms, the internal audit department at those two TSPs
did not perform comprehensive procedures, and the examiners did not assess key controls
related to TSP disposal operations. In addition, examination working papers for two of
the three TSPs did not include procedures to assess disposal risks associated with known
security vulnerabilities, such as inadequate controls over sensitive records and a lack of
encryption for data stored on back-up tapes, laptop computers, and personal digital
assistants.

How the FDIC Can Achieve Greater Assurance That Conclusions on Risks for Key
Security Control Areas Are Included in Examination Documentation

The FFIEC’s Supervision of Technology Service Providers IT Booklet states that
examination working papers must provide sufficient documentation for a reviewer to
understand what work was done, why it was done, and how conclusions were reached.
However, FFIEC and FDIC examination guidance does not describe how conclusions on
security risks related to the protection of customer and consumer information should be
recorded in the examination documentation. FDIC examination staff that we spoke with
indicated that requiring FDIC examiners to include information in the examination
documentation regarding their conclusions on risks for key security control areas would
be beneficial. Examiners noted that such information would promote consistency in TSP
security control assessments among the FDIC’s regional offices. Examiners also noted
that such information would be valuable to examiners when they assume examination
responsibilities for TSPs in the MDPS program, such as when examination
responsibilities transition from one regulator to another. In addition, through enhanced

15
   16 Code of Federal Regulations (C.F.R.) Part 682. Such measures include, for example, conducting due
diligence of prospective disposal firms by reviewing an independent audit of the disposal company’s
operations and/or its compliance with the Disposal Rule, requiring that the disposal company be certified
by a recognized trade association or similar third party, reviewing and evaluating the disposal company’s
information security policies or procedures, or taking other appropriate measures to determine the
competency and integrity of the disposal company. The Disposal Rule became effective June 1, 2005.
16
   The work included, but was not limited to, (a) confirming that shredder bins were locked; (b) inquiring
whether the disposal firm had been certified by the National Association for Information Destruction, Inc.;
and (c) obtaining representations that disposals were supervised and that destruction logs were maintained.


                                                     9
linking of examination procedures performed with identified security risks, DSC would
have greater assurance that customer and consumer information processed by TSPs in the
MDPS program is protected consistent with statutory and regulatory requirements that
are intended to safeguard such information.

DSC can further strengthen its oversight of TSPs in the MDPS program by subjecting
underlying FDIC examination documentation, including working papers, to a periodic
quality assurance review. DSC has already established and implemented a formal quality
assurance program to promote consistency and quality in its risk-management,
compliance, and IT examination processes. However, DSC has not yet conducted a
quality assurance review of FDIC examination working papers related to TSPs in the
MDPS program. Such quality assurance reviews would provide DSC with greater
assurance that examination documentation adequately addresses risk determinations for
key security control areas related to the protection of consumer and customer
information, procedures are performed commensurate with identified risk, and
examination processes are consistently applied across FDIC regions.

Recommendations

We recommend that the Director, DSC:

(1) Provide conclusions on the risks for key security control areas in FDIC examination
    documentation for examinations of TSPs in the MDPS program in order to provide
    greater assurance that examination procedures performed are commensurate with
    identified risks.

(2) Conduct periodic quality assurance reviews of examination documentation prepared
    by FDIC examiners under the MDPS program to achieve greater assurance that
    MDPS examination documentation contains risk determinations for key security
    control areas, procedures performed are commensurate with identified risk, and
    examination processes are consistently applied across FDIC regions.


CORPORATION COMMENTS AND OIG EVALUATION

On November 21, 2007, the Director, DSC, provided a written response to a draft of this
report. DSC’s response is presented in its entirety as Appendix IV to this report. DSC
agreed with both recommendations, noting that it has begun incorporating quality
assurance reviews of documentation prepared by FDIC examiners for examinations of
TSPs in the MDPS program where the FDIC is the Agency-in-Charge. Further, DSC
agreed to emphasize the importance of documenting adequate conclusions for key
security control areas.

DSC’s actions are responsive to our recommendations. A summary of management’s
response to the recommendations is in Appendix V. The recommendations are resolved
but will remain open until we have determined that agreed-to corrective actions have
been completed and are effective.

                                           10
                                                                           APPENDIX I


                   OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of the audit was to assess the FDIC's implementation of FFIEC and FDIC
examination guidance for selected controls related to the protection of customer and
consumer information at TSPs in the MDPS program. We conducted this performance
audit from December 2006 through July 2007 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.

Scope, Methodology, and Internal Controls

The audit focused on the implementation of FFIEC and FDIC examination guidance in
the following three security control areas relative to customer and consumer information
processed by TSPs in the MDPS program on behalf of FDIC-insured financial
institutions:

   •   the oversight of TSP agreements with third-party service providers that maintain
       customer and consumer information;

   •   response programs for addressing security incidents involving customer and
       customer information; and

   •   the disposal of customer and consumer information.

We selected these three security control areas for review because of recent media,
regulatory, and industry attention.

To obtain an understanding of FFIEC examination guidance in the three security control
areas, we reviewed relevant IT Booklets in the FFIEC IT Examination Handbook,
particularly, the Supervision of Technology Service Providers and Information Security
IT booklets. We also reviewed relevant FDIC examination guidance contained in DSC’s
April 5, 2005 Regional Director Memorandum entitled, Examination Procedures to
Evaluate Response Programs for Unauthorized Access to Customer Information and
Customer Notice. In addition, we reviewed relevant FILs, including Fair and Accurate
Credit Transactions Act of 2003 Guidelines Requiring the Proper Disposal of Consumer
Information (dated February 2, 2005) and Risk Management of Technology Outsourcing
(dated November 29, 2000). Further, we reviewed relevant information posted on the
FDIC’s internal and public Web sites. To obtain an understanding of the FDIC’s
supervisory oversight of TSPs in the MDPS program, we interviewed DSC Technology
Service Branch personnel who had responsibility for establishing and maintaining the
FDIC’s IT examination policies, procedures, and guidance and for coordinating with
representatives of the FFIEC IT Subcommittee. Additionally, we interviewed DSC

                                            11
                                                                                      APPENDIX I

regional office personnel to obtain an understanding of MDPS examination strategies,
staffing, and practices.

We assessed the FDIC’s implementation of FFIEC and FDIC examination guidance by
selecting a non-statistical sample 17 of three TSPs in the MDPS program for which the
FDIC was the Agency-in-Charge. Each TSP was under the supervisory oversight of a
different DSC regional office. One of the three TSP examinations we reviewed
processed $1.5 trillion in payments daily, another TSP provided information processing
for over 500 clients, and the third TSP serviced over 4 million merchant locations. For
each TSP, we conducted a detailed review of the examination documentation, including
the underlying working papers and key examination products, such as the scoping
memorandums and ROEs. Additionally, we spoke with the Examiners-in-Charge and
other key FDIC examination staff regarding their examination approach for addressing
the three security control areas covered by our audit. Further, we spoke with
representatives of the U.S. Government Accountability Office regarding security control
work it had conducted at one of the TSPs in our review.

We did not speak with examination staff at other federal banking regulators who had
performed examination work on the three TSPs we reviewed. In addition, we did not
visit any TSP offices or speak with TSP representatives. We conducted our audit work at
the FDIC’s Headquarters offices in Washington, D.C.; the Dallas Regional Office in
Dallas, Texas; the Kansas City Regional Office in Kansas City, Missouri; and the New
York Regional Office in Manhattan, New York.

Reliance on Computer-based Data

We did not assess the reliability of the FFIEC’s computer-based data or the FDIC’s
Virtual Supervisory Information On the Net system (ViSION) 18 information because the
data were not significant to our findings, conclusions, or recommendations.

Compliance with Laws and Regulations

We evaluated whether IT examination procedures to assess selected controls related to
the protection of customer and consumer information at TSPs in the MDPS program were
adequate to address relevant provisions of GLBA, the FACT Act, and the Security
Guidelines. We used certain other federal regulations, such as the Federal Trade
Commission’s Standards for Safeguarding Customer Information and Disposal of
Consumer Report Information and Records (16 C.F.R. Parts 314 and 682, respectively),
as supplemental criteria. Our assessment was limited to the three security control areas
covered by our audit (i.e., the oversight of TSP third-party service providers, incident
response programs, and the disposal of information). Accordingly, our assessment did

17
   The results of a non-statistical sample cannot be projected to the intended population by standard
statistical methods.
18
   ViSION is a bank-supervision tracking and reporting database. DSC refers to ViSION as an
“information workstation” – a programmed means of handling all the computerized data needed to properly
supervise an institution throughout its organizational life.


                                                  12
                                                                                APPENDIX I

not generally include the FDIC’s regulations at Part 332, Privacy of Consumer Financial
Information, which implements GLBA’s provisions regarding privacy notices and related
disclosures with respect to customers and consumers, except where definitions in
Part 332 were referred to or incorporated in the Security Guidelines. See Appendix II for
additional information on relevant laws and regulations, including their legal effect on the
FDIC.

Government Performance and Results Act

We reviewed the FDIC’s Strategic Plan for 2005-2010 and the FDIC 2007 Annual
Performance Plan. Neither of these plans contained a strategic goal or objective
specifically related to examinations of TSPs in the MDPS program. We also reviewed
the FDIC’s 2007 Corporate Performance Objectives (CPO) and determined that it did not
contain a specific CPO related to our audit objectives. However, the first quarter CPO
performance summary stated that a separate effort was underway to assess the potential
risk associated with outsourcing to third-party TSPs, with a focus on TSPs based in
foreign countries. According to the performance summary, the FDIC has developed a
tool to collect data on a quarterly basis from FDIC-supervised institutions on their use of
such TSPs.

Fraud and Illegal Acts

The nature of our audit objective did not require that we develop specific audit
procedures to detect fraud and illegal acts. However, throughout the audit, we were
sensitive to the potential for fraud and illegal acts, and no indications of fraud or illegal
acts came to our attention.

Prior Coverage

This audit is the third in a series of audits designed to assess the FDIC’s examination
coverage of TSPs and related efforts to protect customer and consumer information. The
first audit, FDIC’s Oversight of Technology Service Providers (OIG Audit Report
No. 06-015, dated July 2006), focused on the FDIC’s efforts to identify, monitor, and
prioritize examination coverage of TSPs. The second audit, Information Technology
Examination Coverage of Financial Institutions’ Oversight of Technology Service
Providers (OIG Audit Report No. 07-005, dated February 2007), focused on examination
procedures related to the security of customer information managed by TSPs. We
considered the results of these prior audits when planning and conducting our current
audit work.




                                              13
                                                                               APPENDIX II


               LAWS, REGULATIONS, POLICY, AND GUIDANCE

Laws                               Provisions
Gramm-Leach-Bliley Act (GLBA)      Title V of the Act contains provisions to protect nonpublic personal
                                   information of financial institution customers. It is congressional
                                   policy that each financial institution has an obligation to respect the
                                   privacy of its customers and to protect the security and
                                   confidentiality of those customers’ nonpublic personal information.
                                   Each agency (including the FDIC) or authority should establish
                                   appropriate standards for financial institutions relating to
                                   administrative, technical, and physical safeguards: (1) to ensure the
                                   security and confidentiality of customer records and information;
                                   (2) to protect against any anticipated threats or hazards to the
                                   security or integrity of such records; and (3) to protect against
                                   unauthorized access to or use of such records or information that
                                   could result in substantial harm or inconvenience to any customer.

Bank Service Company Act           A bank service company shall be subject to examination and
                                   regulation by the appropriate federal banking agency of its principal
                                   investor to the same extent as its principal investor. The Act
                                   requires insured financial institutions to notify their appropriate
                                   federal banking agency, in writing, of contracts or relationships with
                                   third parties that provide certain services to the institution. The
                                   depository institution shall notify such agency of the existence of the
                                   service relationship within 30 days after making the service contract
                                   or the performance of the service, whichever occurs first.

Fair Credit Reporting Act          This statute regulates the collection, dissemination, and use of
(FCRA)                             consumer credit information.

Fair and Accurate Credit           This statute, which amends FCRA, requires federal regulators,
Transactions Act of 2003           including the FDIC, to issue regulations in a number of areas,
(FACT Act)                         including regulations on the disposal of consumer information
                                   (section 216).

Federal Deposit Insurance Act,     This provision requires the federal banking agencies to prescribe
section 39                         standards for financial institutions in a number of areas, as well as
                                   operational and managerial standards as deemed appropriate.


Rules & Regulations
12 C.F.R. Part 334, Subpart I -    These FDIC regulations require institutions to properly dispose of
Duties of Users of Consumer        any consumer information in accordance with the Security
Reports Regarding Identity Theft   Guidelines.




                                            14
                                                                                        APPENDIX II

12 C.F.R. Part 364, Standards for         These are the FDIC’s version of interagency guidelines which,
Safety and Soundness, Appendix B,         among other things, address the proper disposal of consumer
Interagency Guidelines Establishing       information requirements pursuant to section 628 of the FCRA and
Information Security Standards 19         apply to all insured state nonmember banks, insured state licensed
                                          branches of foreign banks, and any subsidiaries of such entities
Appendix B, Supplement A,                 (except brokers, dealers, persons providing insurance, investment
Interagency Guidance on Response          companies, and investment advisers). Supplement A provides
Programs for Unauthorized Access          guidance for institutions regarding response plans, including
to Customer Information and               customer notification procedures.
Customer Notice

16 C.F.R. Part 314, Federal Trade         The Safeguards Rule sets forth standards for developing,
Commission (FTC) – Standards for          implementing, and maintaining reasonable administrative, technical,
Safeguarding Customer Information         and physical safeguards to protect the security, confidentiality, and
(Safeguards Rule)                         integrity of customer information. The rule applies to the handling
                                          of customer information by all financial institutions over which the
                                          FTC has jurisdiction. Financial institutions subject to this rule must
                                          also require their service providers, by contract, to implement and
                                          maintain the safeguards discussed in this rule.

16 C.F.R. Part 682, FTC – Disposal        The Disposal Rule requires any person who maintains or otherwise
of Consumer Report Information            possesses consumer information for a business purpose to properly
and Records (Disposal Rule)               dispose of such information by taking reasonable measures to
                                          protect against unauthorized access to, or use of, the information in
                                          connection with its disposal. The rule provides several examples of
                                          reasonable measures, which include incorporating the proper
                                          disposal of consumer information into the information security
                                          program required by the FTC Safeguards Rule.

Guidance
FIL 81-2000, Risk Management of           The FIL provides joint guidance from the FFIEC regulators on
Technology Outsourcing                    managing the risk exposure an institution faces when it uses outside
                                          firms for technology. Specifically, the regulators issued guidance on
                                          key management issues involved in outsourcing technology,
                                          including risk assessment, service provider selection, contract terms,
                                          and oversight of outsourcing arrangements.

FIL-68-2001, 501(b), Examination          Examination procedures described in the guidance are derived from
Guidance                                  the Interagency Guidelines Establishing Standards for Safeguarding
                                          Customer Information and are intended to assist examiners in
                                          assessing the level of compliance with the guidelines.

FIL 7-2005, Guidelines Requiring          The bank and thrift regulatory agencies issued joint final guidelines
the Proper Disposal of Consumer           to implement section 216 of the FACT Act. Section 216 is designed
Information.                              to protect consumers against the risks associated with identity theft
                                          and other types of fraud. This final rule amended Interagency
                                          Guidelines Establishing Standards for Safeguarding Customer

19
   These Standards were revised effective July 1, 2005 and were re-titled, Interagency Guidelines
Establishing Standards for Safeguarding Customer Information.


                                                    15
                                                                              APPENDIX II

                                   Information to require proper disposal of consumer information.
                                   This rule also requires financial institutions to modify any affected
                                   contracts with service providers no later than July 1, 2006.

FIL-27-2005, Guidance on           The FFIEC agencies jointly issued guidance for financial institutions
Response Programs for              to develop and implement a response program designed to address
Unauthorized Access to Customer    incidents of unauthorized access to sensitive customer information
Information and Customer Notice    maintained by the financial institution or its service provider. The
                                   guidance is an interpretation of section 501(b) of GLBA and the
                                   Interagency Guidelines Establishing Information Security
                                   Standards.

Regional Directors Memoranda
RD-90-116, Problem Electronic      Contains instructions for the supervision of a problem electronic
Data Processing Centers            data processing center. A problem center is any servicer that has
                                   been assigned a composite “4” or “5” rating under the Uniform
                                   Interagency Rating System for Data Processing Operations.

RD-93-086, EDP Examinations of     Provides guidance on scheduling an interagency examination of data
Non-Financial Institution Data     centers operated by independent servicers, bank service
Centers                            corporations, or financial institution holding companies. Data
                                   centers included in the MDPS program are administered by the
                                   Electronic Data Processing (EDP) Subcommittee of the FFIEC’s
                                   Task Force on Supervision.

RD-95-013, Enhanced Supervision    Details the Enhanced Supervisory Program for MDPSs, which has
Program for MDPSs                  been approved by the FFIEC Task Force on Supervision.


RD-00-026, Examination of          Supplements the EDP Interagency Examination, Scheduling, and
National Data Processing           Distribution Policy (Supervisory Policies, SP-1 and SP-11) and
Companies                          provides for coordination, standardization, and unification needed
                                   for the examination of MDPSs.

RD-00-032, Scheduling of           Establishes a centralized listing of data center examinations that may
Information Systems Examinations   require participation by other regions.

RD-01-032, Examination             Provides examination procedures to determine compliance with the
Procedures to Evaluate Customer    Interagency Guidelines Establishing Standards for Safeguarding
Information Safeguards             Customer Information (Appendix B to Part 364 of the FDIC Rules
                                   and Regulations) that were mandated by Section 501(b) of the
                                   GLBA to address standards for financial institutions in the
                                   development and implementation of administrative, technical, and
                                   physical safeguards to protect the security, confidentiality, and
                                   integrity of customer records and information.

RD-01-039, Guidelines for          Provides guidelines on preparing examination workpapers.
Examination Workpapers and         Examination findings should be documented through a combination
Discretionary Use of Examination   of brief summaries, bank source documents, report comments, and
Documentation Modules              other papers that address management practices and conditions.


                                            16
                                                                              APPENDIX II

                                    Documentation should provide written support for examination and
                                    verification procedures performed and conclusions reached.

RD-04-002, Establishing Standards   Provides guidance on reporting the results of evaluating a financial
for Safeguarding Customer           institution’s compliance with the Interagency Guidelines
Information                         Establishing Standards for Safeguarding Customer Information.

RD-04-055, Fair and Accurate        Explains the effective dates of the provisions in the Fair and
Credit Transactions Act of 2003-    Accurate Credit Transactions Act of 2003 and provides guidance
Effective Dates                     regarding the impact of these dates on compliance and IT
                                    examination programs.

RD-05-012, Examination              Details examination procedures to determine compliance with the
Procedures to Evaluate Response     Interagency Guidance on Response Programs for Unauthorized
Programs for Unauthorized Access    Access to Customer Information and Customer Notice.
to Customer Information and
Customer Notice

RD-04-059, Information              Contains an update to the IT examination documentation
Technology Examination Quality      requirements.
Control

RD-06-013, IT – Risk-Based          Announces the Risk-Based Examination Priority Ranking Program
Examination Priority Ranking        procedures for all TSPs, including providers in the MDPS program.
Program




                                             17
                                                                                        APPENDIX III


                                        GLOSSARY OF TERMS

           Term                                                 Definition

Consumer                 An individual or the legal representative of such an individual who obtains, from a
                         financial institution, financial products or services that are to be used primarily for
                         personal, family, or household purposes.

Customer                 With respect to a financial institution, any person (or authorized representative of a
                         person) to whom the financial institution provides a product or service, including
                         that of acting as a fiduciary.

Consumer Information Any record about an individual, whether in paper, electronic, or other form.

Consumer Information Any methods used to access, collect, store, transmit, protect, or dispose of customer
Systems              information.

Customer Information     Any information maintained by or for a financial institution that is derived from the
                         relationship between the financial institution and a customer of the financial
                         institution and is identified with the customer.

Data Breach              Generally refers to an organization’s unauthorized or unintentional exposure,
                         disclosure, or loss of sensitive personal information, which can include personally
                         identifiable information such as Social Security numbers or financial information
                         such as credit card numbers. Data breaches can take many forms and do not
                         necessarily lead to identity theft.

Disposal                 The act of discarding media with no other sanitization considerations. This is done
                         by paper recycling containing non-confidential information but may also include
                         other media. Disposal also includes the discarding or abandonment of consumer
                         information or the sale, donation, or transfer of any medium, including computer
                         equipment, upon which consumer information is stored.

Encryption               A process that scrambles the contents of a message or file to make it unintelligible
                         to anyone who is not authorized to read it.

Identity Theft           Identity theft is broad and encompasses many types of criminal activities, including
                         fraud on existing accounts—such as unauthorized use of a stolen credit card
                         number—or fraudulent creation of new accounts—such as using stolen data to open
                         a credit card account in someone else’s name. Depending on the type of
                         information compromised and how it is misused, identity theft victims can face a
                         range of potential harm, from the inconvenience of having a credit card reissued to
                         substantial financial losses and damaged credit ratings.

Incident                 An incident can be a violation or imminent threat of violation of computer security
                         policies, acceptable use policies, or standard security practices. Incidents include
                         denial of service, malicious code, unauthorized access, and inappropriate usage.




                                                      18
                                                                                      APPENDIX III


Incident Notification   When a financial institution becomes aware of an incident of unauthorized access
                        to sensitive customer information, the institution should conduct a reasonable
                        investigation to promptly determine the likelihood that the information has been or
                        will be misused. If the institution determines that misuse of its information about a
                        customer has occurred or is reasonably possible, the institution should notify the
                        affected customer as soon as possible. Customer notice may be delayed if an
                        appropriate law enforcement agency determines that notification will interfere with
                        a criminal investigation and provides the institution with a written request for the
                        delay. Customer notification should be delivered in any manner designed to ensure
                        that a customer can reasonably be expected to receive it, such as by telephone,
                        regular mail, or electronic mail (for those customers for whom it has a valid e-mail
                        address) and who have agreed to receive communications electronically.

Media                   Media take different forms, such as printouts of data, screenshot captures, or cached
                        memory of users’ activities.

Multi-regional Data     A TSP qualifies for the MDPS program when the TSP processes critical
Processing Servicer     applications, such as general ledger or loan and deposit systems, for a large number
(MDPS)                  of financial institutions with multiple federal regulators or geographically dispersed
                        data centers.

Nonpublic Personal      Nonpublic personal information means: (1) personally identifiable financial
Information             information; and (2) any list, description, or other grouping of consumers (and
                        publicly available information pertaining to them) that is derived using any
                        personally identifiable financial information that is not publicly available.

Report of Examination The ROE is the joint property of the FFIEC member agencies and contains two
(ROE)                 sections. The open section contains an assessment of major risks to the financial
                      institutions serviced by the MDPS, recommendations for reducing or managing
                      those risks, and management’s responses to the findings and recommendations.
                      The MDPS’s directors sign and date the Directors’ Signature Page as certification
                      that they have reviewed the ROE. The open section is furnished to the MDPS. The
                      Uniform Rating System for Information Technology -- or IT examination rating --
                      included in the administrative section is available only to supervisory agencies.

Response Program        Response programs specify actions to be taken when a financial institution suspects
                        or detects that unauthorized individuals have gained access to customer information
                        systems. The program should contain procedures for the following:

                         a. Assessing the nature and scope of an incident and identifying which customer
                        information systems and types of customer information have been accessed or
                        misused.
                         b. Notifying its primary federal regulator as soon as possible when the institution
                        becomes aware of an incident involving unauthorized access to, or use of, sensitive
                        customer information.
                         c. Notifying appropriate law enforcement authorities and filing a timely
                        Suspicious Activity Report in situations involving federal criminal violations
                        requiring immediate attention.




                                                    19
                                                                                     APPENDIX III


                         d. Taking appropriate steps to contain and control the incident to prevent further
                        unauthorized access to, or use of, customer information.
                         e. Notifying customers when warranted.

Scoping Memorandum A document that provides details on the organization, scope of the upcoming
                   examination, data centers to be included in the examination, examination schedule,
                   and resource requirements. The document, which is submitted to the FFIEC IT
                   Subcommittee for approval, identifies the risks highlighted in the last examinations
                   and areas for further review and outlines the examination’s objectives, assignments,
                   workday budget, and other relevant information.

Sensitive Customer      Sensitive customer information is a customer's name, address, or telephone number,
Information             in conjunction with the customer's Social Security number, driver's license number,
                        account number, credit or debit card number, or a personal identification number or
                        password that would permit access to the customer's account. Sensitive customer
                        information also includes any combination of components of customer information,
                        such as user name or password or password and account number, that would allow
                        someone to log onto or access the customer's account.

Service Provider        Any person or entity that maintains, processes, or otherwise is permitted access to
                        customer information or consumer information through its provision of services
                        directly to a financial institution.

Technology Service      TSPs include independent data centers, including MDPSs, joint venture/limited
Provider (TSP)          liability corporations, and bank service corporations.




                                                    20
                       APPENDIX IV


CORPORATION COMMENTS




         21
     APPENDIX IV




22
                                                                                        APPENDIX V


                MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and
the status of the recommendations as of the date of report issuance.


    Rec. No.      Corrective Action: Taken          Expected       Monetary      Resolved:a     Open or
                         or Planned                Completion      Benefits      Yes or No      Closedb
                                                      Date

        1         DSC will emphasize to the        March 28,           $0        Yes           Open
                  FDIC regions the                 2008
                  importance of documenting
                  adequate conclusions for
                  key security control areas.

        2         DSC has begun quality            October             $0        Yes           Open
                  assurance reviews of             2007
                  documentation prepared by
                  FDIC examiners for
                  examinations of TSPs in the
                  MDPS program where the
                  FDIC is the Agency-in-
                  Charge.


a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is
                   consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is
                   acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are effective,
the recommendation can be closed.




                                                    23
